<html>
<title> - NOMINATIONS OF HON. DALE CABANISS AND MICHAEL WOOTEN</title>
<body><pre>[Senate Hearing 116-61]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-61

     NOMINATIONS OF HON. DALE CABANISS AND MICHAEL E. WOOTEN, ED.D.

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

      NOMINATIONS OF HON. DALE CABANISS TO BE DIRECTOR, OFFICE OF
        PERSONNEL MANAGEMENT, AND MICHAEL E. WOOTEN, ED.D. TO BE
          ADMINISTRATOR, OFFICE OF FEDERAL PROCUREMENT POLICY,
                    OFFICE OF MANAGEMENT AND BUDGET

                               __________

                              MAY 7, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-696 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="07776847647274736f626b772964686a29">[email&#160;protected]</a>            
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
   Courtney J. Rutland, Deputy Chief Counsel for Governmental Affairs
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                 Claudine J. Brenner, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Hassan...............................................    12
    Senator Sinema...............................................    14
    Senator Hawley...............................................    17
    Senator Carper...............................................    19
    Senator Lankford.............................................    22
Prepared statements:
    Senator Johnson..............................................    29
    Senator Peters...............................................    31

                               
                               
                               WITNESSES
                          Tuesday, May 7, 2019

Hon. John Boozman, a United States Senator from the State of 
  Arkansas.......................................................     3
Hon. Tom Davis, a Representative in Congress from the State of 
  Virginia
    Testimony....................................................     4
    Prepared statement...........................................    33
Hon. Dale Cabaniss to be Director, Office of Personnel Management
    Testimony....................................................     5
    Prepared statement...........................................    34
    Biographical and financial information.......................    36
    Letter from the Office of Government Ethics..................    55
    Responses to pre-hearing questions...........................    58
    Responses to post-hearing questions..........................    90
Michael E. Wooten, ED.D. to be Administrator, Office of Federal 
  Procurement Policy, Office of Management and Budget
    Testimony....................................................     7
    Prepared statement...........................................    98
    Biographical and financial information.......................   100
    Letter from the Office of Government Ethics..................   117
    Responses to pre-hearing questions...........................   120
    Responses to post-hearing questions..........................   141
    Letter of Support............................................   144

                                
                                
                                APPENDIX

Statement submitted for the Record from the American Federation 
  of Government Employees, AFL-CIO Union.........................   145

 
          NOMINATIONS OF HON. DALE CABANISS AND MICHAEL WOOTEN

                              ----------                              


                          TUESDAY, MAY 7, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Scott, Hawley, Peters, 
Carper, Hassan, Harris, and Sinema.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order on Senate 
time. I want to welcome all our guests, our distinguished 
current Members and former Members who are here to introduce 
our nominees.
    I will just ask that my written statement be entered in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    I want to start out by thanking the nominees for our past 
service to this country and your willingness to serve. Again, 
you realize, having served in the government, that this would 
be a pretty big task, and I want to thank your families, those 
that support you in your efforts, for their willingness to kind 
of give up a little bit of extra time with you because that is 
basically what it takes.
    I do want to encourage the nominees during your opening 
statement to feel free to introduce your family members, your 
friends that are here supporting you during your confirmation 
hearing.
    We are here to consider the nominees to be the Director of 
Office and Personnel Management (OPM) and to be Administrator 
of the Office of Federal Procurement Policy (OFPP) of the 
Office of Management and Budget (OMB)--Ms. Dale Cabaniss and 
Mr. Michael Wooten. I appreciate the time you spent with me in 
my office discussing the nominations.
    Mr. Wooten, as we discussed, God bless you for devoting a 
career to government procurement.
    I am an accountant. I like to do all kinds of details 
stuff, but I am not sure I would like that much detail. So I 
really do appreciate your emphasis and your qualifications, 
which I think is true of both nominees, highly qualified for 
the positions, and I look forward to a very good hearing here. 
I look forward to your testimony and your answers to our 
questions.
    So, with that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Thank you to both of our nominees for being here today and 
also for your willingness to serve.
    As the Chairman mentioned, we are considering the 
nomination of Dale Cabaniss to be the Director of the Office of 
Personnel Management and Michael Wooten to be the Administrator 
of the Office of Management and Budget's Office of Federal 
Procurement Policy.
    I think it is fitting that we are holding this hearing 
during Public Service Recognition Week, and I would like to 
take this moment to express my gratitude to our Nation's civil 
servants, including both of our nominees, for their dedication 
and contributions to Federal, State, and local government.
    I appreciate that you have both expressed a desire to 
tackle some of the most pressing challenges that we are facing 
in the Federal Government and the Federal workforce in 
particular.
    Currently, one-third of the workforce is eligible to retire 
at the end of this year, while agencies struggle to recruit and 
to retain talented employees, especially in critical areas such 
as cybersecurity and in acquisitions.
    There are many reasons, of course, for this difficulty--
antiquated hiring systems, layers of bureaucracy--that deter 
workers from considering Federal service in the first place.
    The recent record-setting partial government shutdown also 
struck a severe blow to employee morale. Federal agencies 
cannot compete with the private sector financially. So we must 
seek out innovative ways to attract talented professionals to 
seek out public service.
    I am proud of the bipartisan work this Committee is doing 
in this area. Just last week, the Senate unanimously approved 
bipartisan cyber workforce legislation that I authored and was 
cosponsored by Chairman Johnson and Senator Hassan. Thank you 
for your work on that issue.
    This bill creates a rotational program that offers 
cybersecurity professionals the unique opportunity to gain 
experience in multiple Federal agencies.
    I believe we must continue this Committee's longstanding 
commitment to pursuing bipartisan reforms to strengthen the 
Federal workforce and help our government better serve the 
American people.
    Ms. Cabaniss, Dr. Wooten, you have both indicated that, if 
confirmed, you will pursue policies aimed at making government 
more efficient and more effective, and I share that goal with 
you.
    Unfortunately, over the last 2 years, this Administration 
has shown a reluctance to engage with Congress in the pursuit 
of this shared priority.
    In March 2017, the President issued an Executive Order (EO) 
directing OMB to develop a governmentwide reorganization plan 
with the stated goal of making government more efficient and 
effective.
    Nearly one year ago, June 2018, OMB released its proposal, 
which includes plans to dismantle OPM in its current form.
    Throughout this process, we have repeatedly requested basic 
information about the reorganization, including data that 
justifies the proposal, an implementation plan, and an analysis 
of the impact on the Federal workforce. Nearly one year has 
passed since OMB unveiled this proposal, and we have yet to see 
any of these.
    I am disappointed by the Administration's lack of 
transparency about this proposal. In order to work together to 
achieve our shared goal, we must build a shared understanding 
of what the facts are.
    Ms. Cabaniss, if you are confirmed, you will be leading an 
agency facing sweeping changes, significant uncertainty, and a 
need to rebuild trust with Congress. You will need to provide 
leadership, not only for OPM's 5,400 employees, but for the 2.1 
million dedicated men and women who are serving in the Federal 
workforce.
    I will be listening carefully to both of your testimonies 
today, and I am hoping to hear an unequivocal commitment to 
transparency and to safeguarding the Federal civil workforce.
    Thank you.
    Chairman Johnson. Thanks, Senator Peters.
    We are honored today to have two distinguished guests that 
are going to introduce our nominees, and I guess we will start 
with Senator Boozman.

   OPENING STATEMENT OF THE HONORABLE JOHN BOOZMAN, A UNITED 
           STATES SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Chairman Johnson and Ranking 
Member Peters and the rest of the Committee for allowing me to 
appear today to introduce Dale Cabaniss, the nominee for the 
Director of the Office of Personnel Management.
    I first met Dale in early 2015 when I became Chairman of 
the Financial Services and General Government Subcommittee on 
Appropriations. As this was my first subcommittee chairmanship 
on the committee, I relied heavily on Dale's advice and 
extensive Senate experience where she served for over 20 years.
    I told Dale, in fact, I can remember meeting with her, and 
I told her, her number one job was to keep me out of trouble, 
and she not only did that, but so much more.
    In 2016, for the first time in history of the most recent 
subcommittee jurisdiction, we passed a bill out of the full 
committee on a bipartisan unanimous vote. This was no small 
feat, and it would not have happened without Dale's knowledge 
and expertise. I am especially proud that under Dale's and 
Ranking Member Chris Coon's leadership, we were able to work as 
a committee very well together and get many positive things 
done for the American people.
    As subcommittee chairman, I became deeply involved in 
issues related to OPM, especially in the wake of the massive 
data breach that occurred in 2015. While there were many red 
flags and no single person to blame, it was clear that the 
agency was struggling from a crisis of leadership.
    I am confident that Dale is the right person at the right 
time to lead OPM. She is a lifelong public servant spanning two 
different Administrations. She is an honest broker whose moral 
character and integrity are unmatched.
    Before I wrap up, I would like to take a minute, as the 
Chairman suggested, and recognize Dale's family who is here 
today, her husband Mitch Rose, also a former longtime Senate 
staffer; her brother, Colonel Christian Cabaniss, a U.S. Marine 
who serves our Nation with great honor and distinction. I would 
also like to recognize the rest of her family that are not 
present today. I know that they are so proud of their mom, her 
three children being Ben, Haley, and Shelby, and her mom.
    In closing, I enthusiastically support Dale's nomination to 
lead OPM and really would encourage all of you to look at her 
nomination very closely and also support it as well.
    Thank you very much. Thank you for giving me the 
opportunity.
    Chairman Johnson. Thank you, Senator Boozman.
    To introduce Dr. Wooten is Congressman Tom Davis.

      OPENING STATEMENT OF THE HONORABLE TOM DAVIS,\1\ A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Davis. Thank you, Mr. Chairman, Ranking Member Peters, 
and Members of the Committee for the honor to introduce a 
fellow Virginian, Dr. Michael Wooten.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Davis appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    As a former government contracts lawyer and former chairman 
of the House Government Reform and Oversight Committee, I 
understand the importance of the Office of Federal Procurement 
Policy in OMB.
    Hundreds of billions of dollars are procured by the Federal 
Government annually, and having an administrator who knows the 
underlying laws, regulations, and stakeholders are 
prerequisites. Michael Wooten has it all. I have known Dr. 
Wooten for several years. He is an honorable public servant 
with decades of military and governmental service.
    Michael is a graduate of Chapman University and holds a 
Ph.D. from the University of Pennsylvania. He served in the 
Marines, where he retired as a major. He also served in the 
Department of Education, and he served in the District of 
Columbia Government as a procurement officer there, and he also 
served on the Prince William County School Board.
    I believe that Dr. Wooten will carry out the duties as the 
Administrator of OFPP with the same integrity and independence 
that has marked his previous career.
    Congratulations, Dr. Wooten, on your nomination. I know 
this Committee will give you fair consideration.
    Thank you very much.
    Chairman Johnson. Thank you, Congressman Davis.
    Senator Corker, you sit on the Senate Foreign Relations. 
You are welcome to stay but just not sitting there. [Laughter.]
    Thank you very much. I really do appreciate those 
introductions.
    Now, it is the tradition of this Committee to swear in 
witnesses. So if you will both stand and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Wooten. I do.
    Ms. Cabaniss. I do.
    Chairman Johnson. Please be seated.
    Our first nominee is Dale Cabaniss. Ms. Cabaniss is the 
former clerk of Senate Appropriations Committee Subcommittee on 
Financial Services and General Government. Previously, she 
served as chairman of the Federal Labor Relations Authority 
(FLRA) and in various positions on Capitol Hill, including on 
this Committee when, as you said, it was just Governmental 
Affairs Committee (GAC), not Homeland Security and Governmental 
Affairs Committee (HSGAC). Ms. Cabaniss.

 TESTIMONY OF THE HONORABLE DALE CABANISS,\1\ NOMINATED TO BE 
            DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT

    Ms. Cabaniss. Mr. Chairman, Ranking Member Peters, and 
Members of the Committee, thank you for giving me the 
opportunity to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Cabaniss appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    I also want to thank Senator Boozman for his kind 
introduction. I have had an opportunity to work with many 
Senators throughout my tenure in the U.S. Senate, but my time 
with Senator Boozman and his staff definitely stands out as a 
highlight of my career.
    I would also like to thank the members of my family who are 
here with me today, my husband Mitch Rose, and my brother, 
Colonel Christian Cabaniss.
    Mr. Chairman, I am honored to have been nominated by the 
President to serve as Director of the Office of Personnel 
Management. I am grateful to have spent my entire career in 
public service.
    I worked in the U.S. Senate for over 20 years and served in 
two Presidential administrations.
    In the Senate, I had the fortune of working in a member's 
personal office, on an authorizing committee, and on the Senate 
Appropriations Committee, all of which gave me a chance to work 
on the issues impacting the civil service and the Office of 
Personnel Management.
    In the Executive Branch, I served as a member of a three-
member adjudicatory body, and I later had the responsibility of 
serving as the agency head as well.
    These experiences each gave me a different perspective and 
insights into the challenges facing Federal employees and 
agencies as they work together on behalf of the American 
people.
    Throughout my career, I have worked with incredibly 
dedicated civil servants, representing all three branches of 
government, employees on the front lines of combating terrorist 
financing, protecting our financial markets, assisting our 
Nation's small businesses, and ensuring the orderly 
administration of justice.
    OPM's people, policy, and programs play a critical role in 
the accomplishment of these missions through the support of the 
civil service. When the Civil Service Commission was 
established, it laid the foundation for an impartial, 
professional civil service based on the merit principle that 
employees should be judged only on how well they can do a job.
    In 1978, with passage of the Civil Service Reform Act 
(CSRA), OPM was charged with the responsibility for personnel 
management of the civil service.
    Today OPM delivers policy and services to ensure the 
Federal Government has a trusted and effective Federal 
workforce. OPM employees serves Federal employees through the 
administration of health care, retirement, and other benefits, 
supporting merit-based hiring and a secure employment process.
    Throughout my Federal service, Presidential administrations 
have continuously strived to improve performance and the 
management of the Federal Government, its workforce, and its 
service to Americans.
    As a staff member on this Committee and later as an 
appointee in the Clinton Administration, I saw firsthand the 
work of Vice President Gore's National Performance Review.
    As an appointee in the Bush Administration, I worked to try 
to ensure that the agency processes and policies were 
consistent with the President's Management Agenda.
    As a member of the Appropriations Committee staff, I 
engaged on a daily basis with agencies seeking to execute 
President Obama's charge to make government more citizen-
centered, not bureaucracy-centered.
    All of these efforts contemplated the need to modernize 
government and to consider agency workforce planning and 
restructuring.
    President Trump's Management Agenda continues the critical 
efforts to improve the Federal Government's delivery of service 
to its citizens. The agenda's focus on mission, service, and 
stewardship lays the foundation of a long-term vision to 
modernize the Federal Government.
    The efforts of the Federal workforce are crucial to the 
success of leading the Federal Government into the 21st 
Century.
    In order to effectively support the operations of 
government, the Federal workforce needs to keep pace with the 
changes and challenges facing our Nation. Improving the 
recruitment, retention, and reskilling of Federal employees 
will help both employees and agencies drive that modernization.
    Mr. Chairman, I want to take a moment to discuss my tenure 
at the Federal Labor Relations Authority. It was an honor when 
President Clinton nominated me to serve on the FLRA, and I was 
very proud when President Bush nominated me to be chairman.
    The FLRA is made up of three statutory components, each led 
by a Senate-confirmed Presidential appointee. When I arrived at 
the Agency, I realized the agency was acting as if it was three 
silo-ed separate agencies. There were duplicative functions in 
different offices. Employees were not treated the same or often 
fairly across components. Offices had difficulty justifying 
their budget requests and preferred budget and staffing levels 
based on historical levels rather than current workload.
    I made several changes to try and make this agency function 
more as one. Employees needed to be treated equally, no matter 
where they sat. Resource decisions had to be made with the 
agency mission in mind and based on current workload and 
caseload trends. These changes were not necessarily welcomed, 
particularly by those who preferred their component's need take 
priority over another part of the agency, but we all had a 
fiduciary responsibility to ensure the best value on behalf of 
the American taxpayer. We worked to balance that need for 
stewardship with the mission of the agency.
    Mr. Chairman, I believe my experience working with Members 
of Congress, the Executive Branch, congressional leadership, 
congressional staff, and other stakeholders on legislative and 
policy matters critical to the effective and efficient 
functioning of government have given me a clear understanding 
of the challenges facing Federal employees and agencies.
    If confirmed, I will work with stakeholders to ensure that 
Federal employees and agencies have the tools that they need 
and the support to work effectively together on behalf of the 
American people.
    I look forward to answering your questions.
    Thank you.
    Chairman Johnson. Thank you, Ms. Cabaniss.
    Our second nominee is Michael Wooten. Dr. Wooten is a 
senior advisor at the Department of Education, previously 
serving as the Deputy Assistant Under Secretary for Career, 
Technical, and Adult Education. Dr. Wooten worked previously in 
the procurement for the District of Columbia. He was a 
professor at the Defense Acquisition University (DAU) following 
20 years of service in the United States Marine Corps (USMC). 
Dr. Wooten.

   TESTIMONY OF MICHAEL E. WOOTEN, ED.D.,\1\ NOMINATED TO BE 
ADMINISTRATOR, OFFICE OF FEDERAL PROCUREMENT POLICY, OFFICE OF 
                     MANAGEMENT AND BUDGET

    Mr. Wooten. Thank you, Chairman Johnson, Ranking Member 
Peters, and members of the Committee for inviting me here 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wooten appears in the Appendix on 
page 98.
---------------------------------------------------------------------------
    I am honored to be here before you as the President's 
nominee to serve as the Administrator for Federal Procurement 
Policy in the Office of Management and Budget.
    I am pleased and proud of the encouragement and support 
that I have received from family, friends, and professional 
colleagues, particularly from those in the acquisition 
community.
    I am particularly honored to be joined by a few family 
members today. It is my great pleasure to introduce my wife of 
31 years, D'Andrea Wooten. She is joined by her mother, Mrs. 
Maxine Wilson, my brother, Dr. David Wooten, and our son, John 
Wooten. Our daughter, Sarah Wooten Wright, resides in Buffalo 
with her husband, Emerson Wright, and they were unable to join 
us here today.
    I would also like to acknowledge my father, Senior Chief 
James W. Wooten, U.S. Navy retired, and my father-in-law, 
Captain Alger L. Wilson, U.S. Navy retired. These two sailors 
were unable to make the trip here today, but I hope they are 
watching. Between their service and my own service as a marine, 
our family has a proud legacy of over 70 years of naval 
service, and I know they support me as I ask to be considered 
for further national service.
    I want to thank President Trump for nominating me to this 
position. I also want to thank and acknowledge the Honorable 
Margaret Weichert, Deputy Director for Management at OMB. She 
has provided steadfast support, and she always demonstrates 
upbeat leadership. I deeply appreciate the confidence that 
these two leaders have shown me by means of this nomination.
    I would also like to thank the Honorable Thomas Davis for 
his kind introduction. He served as my Congress Member for over 
a decade and is the former Chairman of the House Oversight and 
Government Reform Committee. I am honored by his support here 
today.
    I believe that the Administrator's role is to set 
priorities and an agenda to achieve best the economy, 
efficiency, and effectiveness mandates charged to the Office of 
Federal Procurement Policy. Today I believe that acquisition 
goodness can be best achieved by supporting the President's 
Management Agenda. Acquisition goodness also needs leadership 
that supports sparking innovation, promoting shared services, 
maximizing buying power, championing transparency, providing 
policy and management leadership, developing the acquisition 
workforce, and supporting small business participation, which 
is the heart of the American industrial base.
    Over the past 20 years, I have served in various 
acquisition posts. I have served in various roles as a 
contracting officer in the Marine Corps, to include combat and 
humanitarian contracting in Afghanistan and surrounding 
regions.
    I have served as a professor of Contract Management at 
Defense Acquisition University, and Deputy Chief Procurement 
Officer for the District of Columbia?
    If confirmed, I intend to prioritize the following: 
institutionalizing category management, supporting our small 
business partners, improving major acquisitions, sparking 
innovation, and leading the acquisition workforce.
    If confirmed, I hope to leverage my position as 
Administrator to increase awareness of these priorities and 
related initiatives, including the dissemination of best 
practices and tailored training that meets the different needs 
of agencies.
    I believe that innovation and cost efficiency are the two 
most critical procurement concerns for the success and 
durability of the Federal acquisition system, and I believe 
that these policy priorities offer the most significant and 
positive impact on Federal procurement.
    To overcome our innovation challenges and the near-peer 
threats posed by global adversaries, ``faster, better, 
cheaper'' must reemerge as the burning modernization 
imperative. Modernizing the way we buy over half a trillion 
dollars of goods and services each year is critical to 
providing the solutions our government requires at a price the 
taxpayers can afford over the long term.
    The Office of Federal Procurement Policy has shown 
significant progress in implementing category management, a key 
initiative under the President's Management Agenda. Presently, 
category management has yielded tangible cost avoidance and 
cost savings. At its zenith, all Federal agencies will benefit 
from category management as a strategy for sharing market 
intelligence, leveraging buying power, and using expertise 
across the Government enterprise for common areas of spending. 
Category management is a superb strategy for buying goods and 
services throughout the Federal enterprise at a price the 
taxpayers can afford over the long term.
    Once again, thank you for the opportunity to appear before 
you today. If confirmed, I look forward to working closely with 
this Committee to deliver greater value to the taxpayer.
    I am pleased to answer any questions you may have.
    Chairman Johnson. Thank you, Dr. Wooten.
    There are three questions we ask every nominee. I will ask 
the question, and then I would like you each to answer the 
question.
    I will start with Ms. Cabaniss. Is there anything you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated? Ms. Cabaniss.
    Ms. Cabaniss. No.
    Chairman Johnson. Dr. Wooten?
    Mr. Wooten. No, sir.
    Chairman Johnson. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorable discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Cabaniss. No, sir.
    Mr. Wooten. No, Senator.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Cabaniss. Yes.
    Mr. Wooten. Yes, Senator.
    Chairman Johnson. Those are the correct answers.
    Out of respect for my colleagues' time, I will turn it over 
to Senator Peters.
    Senator Peters. Well, thank you. Thank you, Mr. Chairman.
    This Committee is the Senate's primary oversight body, as 
both of you know, and it has a constitutional duty to conduct 
oversight of governmentwide operations and ensure that Federal 
agencies and programs are serving the American people both 
effectively and spending the taxpayer dollars responsibly.
    However, we cannot fulfill this critical oversight 
responsibility without the cooperation of the Federal agencies, 
and I know both of you address this in your written responses, 
but I think it is important for me to ask this question again 
and have you reiterate those answers.
    So for both of you, if confirmed, will you commit to 
responding to oversight requests from Members of Congress and 
particularly from Members of this Committee as the primary 
oversight body of the U.S. Senate in a consistent and timely 
manner, regardless of the party?
    Ms. Cabaniss. Yes.
    Senator Peters. Dr. Wooten?
    Mr. Wooten. Yes, Senator.
    Senator Peters. Thank you.
    Ms. Cabaniss, in our meeting last week, you and I discussed 
some strategies to deal with improving the Federal Government's 
ability to attract and retain top talent, and I am certainly 
pleased to hear your support of the Federal Rotational Cyber 
Workforce Program that I mentioned in my opening comments.
    As you are well aware, the legislation helps the Federal 
Government develop and to integrate cybersecurity workforce and 
also, very importantly, to retain high-skilled employees by 
establishing a rotational program that allows professionals to 
get experience in other departments and then come back to their 
existing department.
    So my question to you is, if confirmed, will you continue 
to the commitment that you expressed in my office supporting 
this legislation and working with us to get this signed into 
law and then implemented within the agencies?
    Ms. Cabaniss. Yes, Senator. I think it is a very important 
tool not to just address our cyber needs, but as a way to 
recruit and retain new talent coming into the government, 
giving people more opportunities to be able to work different 
places in Federal Government and keep them engaged, so yes, 
absolutely, I really look forward to working with you on it, if 
confirmed.
    Senator Peters. Right. Well, thank you. I look forward to 
that as well.
    The American Federation of Government Employees (AFGE) 
represents about 700,000 Federal and D.C. Government employees. 
It makes it the largest Federal employee union in the Country.
    AFGE sent a letter to this Committee expressing opposition 
to your appointment, Ms. Cabaniss.
    Mr. Chairman, I would like to have that letter entered into 
the record\1\ without objection.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appears in the Appendix 
on page 145.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Related to the letter, if I may ask a 
question. In 2007, the FLRA, when you were the Chair of that 
organization, ranked last among small Federal agencies in the 
Best Places to Work in the Federal Government rankings. Of 
note, employees expressed very high levels of dissatisfaction 
with senior members.
    So, as Chairman of the FLRA, what steps did you take to 
address this low employee morale, and how did you confront what 
was at the time appearing to be a difficult problem?
    Ms. Cabaniss. Well, it was difficult because it was a time 
of change. That when I arrived at the FLRA, I found a lot of 
deficiencies related to human resources (HR) management, 
procurement, acquisition issues. There were just a lot of 
deficiencies. Employees were not treated equally. So there were 
a lot of changes that we made in policies and agency guidance 
to be consistent not only with the President's Management 
Agenda, but ensure that employees were being treated fairly.
    I understand that some of these changes were not 
necessarily popular, but they were things that we really needed 
to do to be good stewards of the taxpayer dollars but to also 
ensure that merit principles were being followed because 
employees were not necessarily being treated fairly.
    We discussed a lot of these issues with the component heads 
of the different independent components of the FLRA, and the 
career employees with agency-wide responsibilities who reported 
to me worked a lot with other career managers, and those 
managers also talked with their employees.
    So you are right. It was an issue, and I understand that 
morale was not necessarily great, but there were also external 
forces that were threats to the agency at the time. The 
Department of Homeland Security (DHS) was looking about whether 
or not collective bargaining was consistent with national 
security. This was an ongoing debate after September 11, 2001 
(9/11). The Department of Defense (DOD) was looking about 
potentially creating its own personnel system and going away 
from the jurisdiction of the FLRA.
    So at the same time we were making internal changes, there 
were threats to the agency that probably would have costed 
about 60 percent of its jurisdiction.
    So I understand that there were concerns about the future 
of the agency, as people had come to know it, but there was not 
really anything that I could do to promise that Congress was 
not going to make these changes.
    Senator Peters. So, if confirmed as Director of OPM, your 
agency will be the leader of HR management for millions of 
Federal employees as well as retirees. So based on the answer 
you just gave me related to the FLRA, is there anything 
specifically that you would do differently as the Director of 
the OPM, and as the Chair, what were some of the lessons 
learned, and how do you think things may be different?
    Ms. Cabaniss. Well, I think any opportunity that you have 
to be a leader and a manager, you have constantly got to be 
learning from each experience, that you have that you never 
stop learning.
    I think change is a constant in our world today. We have to 
help figure out a way to communicate more with our employees to 
help them manage the anxiety and the valid feelings that come 
about with that change and try and provide as much information 
as possible, knowing that we are not going to be able to 
promise that the world is not going to change, but do what we 
can so that people feel like they have enough information that 
they can help make an informed decision about what they want to 
do and just kind of manage those emotions around that change.
    Senator Peters. As I mentioned earlier, since OMB released 
the Administration's governmentwide reorganization proposal in 
June 2018, Members of this Committee have been asking for some 
basic information about these plans detailing estimated cost, 
implementation timelines, and an analysis of the expected 
impact on the Federal workforce.
    In your written responses and during your staff interview, 
you have emphasized the importance of congressional oversight 
and of justifying major organizational change with a business 
case or a cost-benefit analysis. I think that is an accurate 
representation of how you have approached this issue.
    So my question to you is, if confirmed, will you commit to 
go through a very thorough evaluation of the existing analysis 
and justification supporting any reorganization efforts already 
underway?
    Ms. Cabaniss. Yes, Senator. Obviously, what I know about 
the reorganization plan now is based on the President's 
Management Agenda and what was in the budget request.
    In our discussions, one point I did raise was I am not sure 
about using cost-benefit analysis as a term of art. In my 
experience working on the Appropriations Committee, when 
agencies came to us wanting to restructure certain offices to 
make realignments or, for example, changing the Bureau of 
Public Debt to the Fiscal Service, I do not think that I ever 
saw a cost-benefit analysis. I tend to think of that more in 
terms of when people were looking at agency, the promulgation 
of regulations.
    But I agree with you, absolutely, from sitting on the other 
side. I know that you have to get all the information you need 
to best understand it and particularly since, as I read the 
Management Agenda, it envisions the need for legislation. So 
the only way to get legislation to be able to effectuate this 
change would be to work with Congress.
    Senator Peters. Well, I am out of time.
    Just to follow up, a quick answer. So, as you go through 
that process, will you commit to sharing any analysis or any 
supporting data with this Committee--that all that will be 
transparent and shared with us?
    Ms. Cabaniss. As a private citizen, I do not know what is 
available, and I do not know whether there is any of it that--I 
do not want to overstate, but obviously, I would do all I could 
to be as transparent as possible and provide you everything 
that I am able to.
    Senator Peters. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chair and Ranking 
Member Peters, and thank you to Ms. Cabaniss and Mr. Wooten for 
being here, for your service.
    Thank you to the families too. Both of you spoke of the 
service in both of your families. It is quite impressive to see 
two nominees here with families with such extraordinary records 
of service, and we are very grateful to you and your families.
    Ms. Cabaniss, I wanted to start and follow up on something 
we began to talk about when we met last week. It is no secret 
that the current Administration is openly hostile toward 
Federal employees and the unions that represent them.
    We have seen attempts to dismantle Federal employee unions, 
eliminate official time, bargain in bad faith, and use 
employees as pawns in a politically driven government shutdown.
    In our meeting last week, I made it clear to you that it is 
the job of the OPM Director to advocate on behalf of the 2 
million Federal employees who serve the American people and 
ensure that these employees are valued and respected. I believe 
this includes supporting Federal employees' rights to organize.
    So, Ms. Cabaniss, do you agree that it is in the public's 
best interest to allow collective bargaining and the other 
activities that flow from it, which promote the recruitment and 
fair treatment of a modern Federal workforce?
    Ms. Cabaniss. Yes, Senator. As we discussed last week, the 
statute that we administered at the FLRA finds that collective 
bargaining is in the public interest.
    Senator Hassan. Thank you.
    And will you unequivocally commit to support Federal 
employees and their right to organize, despite the efforts of 
the current Administration if you are confirmed?
    Ms. Cabaniss. Yes, Senator. I will follow the statute.
    Senator Hassan. Thank you.
    My office is increasingly hearing from constituents about 
their frustration with the amount of time it takes OPM to 
process their Federal employee retirement benefit claims. These 
delays place a significant financial hardship on individuals 
and families who provided a great service to their country, and 
they deserve better.
    Ms. Cabaniss, are you aware of these processing delays and 
the financial hardships that they cause?
    Ms. Cabaniss. Yes, Senator. As we discussed, for as long as 
I worked in the Senate, my entire career, the issue of delays 
in retirement processing has been a consistent problem, 
unfortunately.
    Senator Hassan. Yes.
    Ms. Cabaniss. As I mentioned in my own experience, it took 
me 6 months to receive a check after I retired.
    Senator Hassan. Right.
    Ms. Cabaniss. And I would like to think that I am an 
outlier, but I am afraid I am not.
    Senator Hassan. If our constituent calls are any 
indication, I think you are not.
    So, if confirmed, what steps will you take to discover the 
causes of these delays and address this pressing concern?
    Ms. Cabaniss. I think we really need a bottom-up review to 
see what is working, what is not.
    I know that we are always going to have some paper, and 
until those of us who retired who came into the government, and 
so you have that competing demand of trying to modernize and 
make electronic applications and electronic transmittal of 
information from agencies to OPM, but you are still going to 
have paper in caves in Pennsylvania for those of us who came 
in, in a different era.
    I do not think you want to redirect resources to digitizing 
that paperwork.
    But that said, I really think we do need a bottom-up review 
because this has been going on for too long. I know they are 
making progress, but it is not sufficient progress.
    I would really like to look and see, in addition to finding 
out what works with the folks at Boyers and where they are 
finding success. I would also really like to look somewhat to 
the public sector--large pension plans, States--and see what we 
can learn in terms of best practices from other people and 
other kind of retirement programs to see how they have done 
because I think we have to find a solution.
    Senator Hassan. Well, it is good to hear your thoughts on 
that.
    If confirmed, will you commit to reporting back to my 
office within 60 days with an explanation of what is causing 
the processing delays as well as your plan to address it?
    Ms. Cabaniss. I will certainly report back to you in 60 
days with about what I have been able to find so far, if 
confirmed.
    Senator Hassan. OK. Understood.
    I wanted to follow up with you on one of the topics that 
Senator Peters and you began to discuss, which is 
cybersecurity.
    It has been one of my top priorities since joining the 
Senate and really have been trying to look at different ways we 
can strengthen government cybersecurity, and Senator Peters 
mentioned our legislation about a cybersecurity rotation.
    It is really clear that we cannot defend our country 
against domestic and foreign cyber threats unless we employee a 
highly skilled cybersecurity workforce across the government.
    OPM plays a critical role in ensuring that the government 
is adequately staffed with talented cybersecurity personnel.
    You have discussed some ideas you have in this regard, but 
can you expand a little bit on how you plan to address 
challenges to recruiting and retaining cybersecurity 
professionals to ensure that the United States is protected 
against cyber threats and vulnerabilities, if confirmed?
    Ms. Cabaniss. Yes.
    I think what you all have done is a great first step, and I 
think it really does somewhat institutionalize things that were 
started during the Obama Administration with the digital 
service and the information technology (IT) and oversight 
reform group that was in the White House that was brought in, 
people who came in from industry and essentially did what you 
are now going to institutionalize, but have people who could go 
from problem to problem.
    I am really interested in talking to industry to figure out 
how they can convince people to come work in the Federal 
Government.
    I would love to go back and talk to the three Federal Chief 
Information Officers (CIOs) that I worked with in the Obama 
Administration to see how they were able to recruit people in 
and then also what flexibilities that we already have or that 
we can consider to try and convince people to come in and 
essentially do tours of duty working in cyber because we are 
not going to be able to compete for the long haul. Also this 
next generation of cyber experts is not going to work for the 
government for 33 years, like I did.
    I am really interested in talking to industry about how we 
can appeal to these people and what we can do to make this a 
place that is more interesting for them to work.
    Senator Hassan. Well, thanks for that. I hope we can make 
the case to this workforce because we really need them, and it 
is critical to our Nation's security.
    Ms. Cabaniss. I agree.
    Senator Hassan. Thank you, Mr. Chairman.
    Mr. Wooten, I do not have any questions for you. I look 
forward to working with you, though, and thank you for your 
service.
    Mr. Wooten. Thank you, Senator.
    Senator Hassan. I yield.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today.
    Arizona is home to over 50,000 retired and 30,000 current 
Federal employees, and these employees provide security at our 
borders, they support our veterans, and they manage our 
absolutely beautiful public lands. Many of these employees are 
dedicated to both the mission and service, and I want to make 
sure the Federal Government ensures they are properly supported 
in their efforts. Unfortunately, that does not always happen.
    In Arizona, there is a crisis at our border. Customs and 
Border Protection (CBP) officers and agents are currently 
exhausted. They are being detailed outside their scope of 
expertise. Many are working 16-hour shifts to make up for staff 
shortfalls. We also are experiencing a shortage of VA staff and 
clinicians, and it has been challenging to attract critically 
needed staff in rural areas.
    We can only meet these challenges with a strong OPM 
Director who will ensure the Nation's human resources 
department is ready to assist, and that is why it is so 
important for me to better understand the perspective of your 
opinion on the Administration's proposal to merge OPM into the 
General Services Administration (GSA).
    Congress needs to know that the Director will do what is 
right for Federal employees and the citizens who rely on 
Federal services, and while this proposed merger has been 
presented as a cost-saving and efficiency-gaining mechanism, we 
have not received any significant analysis that shows that the 
merger will achieve those goals. We have not seen a legal 
analysis of the legislative authorities required for the merger 
to advance nor a business plan outlining the case for 
implementation, a timeline, impact on current employees, or 
more broadly, if this merger is even possible.
    So we want to see all of the analysis that OPM has 
developed. So understanding how you will handle these requests 
will help us all understand how to approach your nomination. If 
confirmed to this position, what are the key factors that you 
will use to determine if this merger is a good business plan 
for our Country?
    Ms. Cabaniss. I think as a private citizen, I do not have a 
lot of details on what is going on. I know what I have seen, 
but I think what is going to happen, at least from what you can 
tell from the President's budget request, is that a lot of this 
is going to require legislation.
    So what I would want to do would be to work with Congress 
and all of the stakeholders to make sure that we can work on 
reaching a conclusion that we think will actually be effective 
and will really help because the people, policy, and programs 
of OPM have to continue. It does not matter where they sit. 
Those things are critical, and they are critical to the 
functioning of government.
    I commit to you, Senator, if confirmed, I would work with 
this Committee and anyone who is interested to make sure if on 
any kind of legislative implementation plan, to make sure that 
it is addressing people's concerns.
    Senator Sinema. Thank you.
    What steps do you see yourself taking if during your review 
of OPM's work to date on this merger, if you find that the 
merger does not make sense from a business case or if there are 
technical problems? What kind of steps do you see yourself 
taking if you were to review that and have concerns?
    Ms. Cabaniss. I think, again, Senator, that I would 
approach it by working with Congress and working through those 
issues.
    I have had some experience in working in the Senate on 
working very complex, contentious issues, with a lot of 
different opinions, a lot of different stakeholders, and I feel 
like I have had a significant amount of success in kind of 
trying to bring people together to reach a resolution. So that 
would be the same approach that I would take to this process.
    Senator Sinema. Thanks.
    Just another question about this merger. If confirmed, as 
you are moving forward with the merger, would you be willing to 
ensure that a legal analysis is done to assess what legal 
authorities are needed to support the merger and, of course, 
share those legal outcomes with the Committee and make sure 
that we are working closely to draft legislation that might 
require legal changes?
    Ms. Cabaniss. I think any consideration of legislation, you 
would have to do that kind of analysis. Otherwise you would not 
be able to, it would be critical to the drafting.
    Senator Sinema. Finally, my last question for you is, What 
do you see as the role of the OPM Director in protecting both 
our Federal workforce and our Federal retirees?
    Ms. Cabaniss. I think it would be an incredible honor, if 
confirmed, to have this job, just the paramount role of the 
Director to protect the civil service and merit principles and 
those retirees.
    I was talking to someone the other day, and we were 
discussing how when you become a Federal employees, the only 
agency that you really interact with your entire life is OPM, 
and whether it is even after you have gone on, your survivors. 
So we have to make sure that we get it right.
    Senator Sinema. My last question for you is about 
information technology. As you know, information technology 
capabilities is a key factor for ensuring that we have 
efficient government operations, and one of the first questions 
that many have regarding a merger, such as the one proposed 
here, is whether or not these existing computer systems can 
work together effectively.
    We have certainly seen how sometimes computer systems in 
various agencies do not communicate well with each other.
    So what would be your plan to ensure that the merger works 
from an IT perspective and that we were seamlessly moving folks 
from one database to another or one platform or system to 
another?
    Ms. Cabaniss. I think there would just have to be a real 
partnership between me and the CIO, who I have met with, and as 
well as the Office of Inspector General (OIG) and their folks 
who work on IT.
    I have had the benefit of working with the OPM Inspector 
General (IG) over the years on IT issues related to the breach. 
I think they play a really important role to making sure that 
any kind of risk assessment is done and that no changes are 
made until people are confident that there is not going to be a 
problem because the last thing that we need to do is make 
things more difficult for Federal employees.
    Senator Sinema. Right.
    Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman, and 
congratulations to both of the nominees today. Great to have 
you here. I look forward to working with you.
    Ms. Cabaniss, let me start with you. You and I were 
discussing earlier today data privacy, data security. That is 
something that is very important to me. As Attorney General of 
the State of Missouri, I launched an investigation of the 
Equifax data breach, which affected quite a few members of my 
State, residents of my State.
    The OPM data breach predated Equifax's, and I am afraid it 
was quite a bit larger.
    If confirmed, you will enter the job of Director at a time 
of heightened threats to our IT infrastructure. What lessons 
and best practices will you bring to OPM to ensure that it is 
appropriately fortified, shall we say, and that the sensitive 
personal information of Federal employees is protected?
    Ms. Cabaniss. I would continue to work with the OIG's 
office, as I mentioned that I have worked with before on the 
breach.
    I have had an opportunity to meet briefly with the new CIO 
and the Deputy CIO. I am more positive about OPM's IT 
improvement than I have been in the past. They came from 
Digital Services. They are part of the original group who came 
in during the Obama Administration. They are just incredible 
technical people who really are here just because they want to 
serve.
    And that I would also want to work with the Government 
Accountability Office (GAO) because I have worked with them as 
a partner, both their information technology people, but also 
their cybersecurity group, just to make sure that you have that 
second, third set of eyes to make sure we are doing what is 
right.
    As I mentioned to you, OPM was one of the largest breaches 
when I worked on the Committee, and my information was 
compromised as well. But it was not the only breach. We had 
significant breaches at the Internal Revenue Service (IRS) and 
some other agencies that were not necessarily in the press.
    I have always found GAO to be an incredible partner in kind 
of having that overview because they got their finger on their 
pulse with DHS and the United States Computer Emergency 
Readiness Team (US-CERT) and knowing what the best practices 
are. I really think it would be a collaborative effort.
    I am not an expert, but I know where the experts are.
    Senator Hawley. Thank you for that.
    Let me draw your attention, both witnesses, to a story that 
ran in the New York Times with this headline, ``How Chinese 
Spies Got the National Security Agency (NSA's) Hacking Tools 
and Used Them for Attacks.''
    Several weeks ago, the Wall Street Journal ran an expose on 
China's use of U.S. satellites, and every week we read about 
another technology that has been stolen by our adversaries, 
particularly China.
    If confirmed, you will both oversee large portions of the 
Federal Government that are directly affected by these stories, 
the management of the Federal Government's workforce, Inspector 
General, and of course, the technology that the government 
acquires.
    Can you each describe for me why our government, which is 
the strongest in the world, appears to be so vulnerable? What 
is your view on this, and what changes do you propose to be 
made to address the kind of vulnerabilities that we are seeing 
reported in the press?
    Dr. Wooten, I will let you go first.
    Mr. Wooten. Well, thank you, Senator.
    I agree that that is one of the most concerning areas of 
vulnerability for the United States. There are large nations 
that obviously can shore up military threats to the Nation, but 
the cyber threat is one that can be shored up by large small 
nations and even non-state actors.
    If confirmed, I would work with the appropriate agencies, 
the Chief Information Security Officer (CISO), and others to 
look at resources that are necessary from a contracting 
perspective and ensure that we do not have procurement 
regulations that get in the way of getting the type of cyber 
defense resources that we need.
    Senator Hawley. Just on that last point, Dr. Wooten, are 
you aware now of any such procurement regulations that you 
think are a hindrance to getting the resources that you need?
    Mr. Wooten. Well, Senator Hawley, thank you for that 
clarification question.
    Actually, as it stands right now, I am not presently aware, 
but I think because of the nature of the cyber threat, we have 
to continually scan the environment, and I think that is a 
question that I would need to put to the leadership from time 
to time.
    Senator Hawley. Yes. Thank you very much. Ms. Cabaniss.
    Ms. Cabaniss. I would definitely want to work with Dr. 
Wooten, and the reason I say that is based on my experience 
working on the Appropriations Committee and breaches that 
happened at large agencies, small agencies, too often there was 
a pattern. Sometimes it was just lack of skill when it came to 
project management, agencies thinking they needed to create 
their own systems in-house as opposed to seeking expert advice 
from other agencies or having difficulty developing their own 
requirements and then going to contractors who would write the 
requirements for them.
    The people in the agency might be great experts of what 
their agency did, but they were not IT experts. I would really 
like to work with your office to find ways to like leverage 
that expertise because I think some of the problems are 
agencies just operating in their own siloes and their own 
systems, creating vulnerabilities without even realizing they 
are doing it.
    Senator Hawley. Very good.
    Dr. Wooten, a final question for you. Some of the 
procurement policies in the Federal Government, especially in 
the tech sector, are of concern to me, and I would like to get 
your views on them.
    In particular, I recently had the chance to ask the 
Chairman of the Joint Chiefs about Google's behavior and 
avoiding contracting with the U.S. Government, DOD, and instead 
partnering with China. And he went further to say that he 
believes Google partners with China in ways that directly 
threaten the security of the United States.
    From your perspective, what needs to change on how the U.S. 
Government engages in contracting with tech companies, and how 
do you see your role if you are confirmed in integrating DOD's 
procurement policies with those of OMB?
    Mr. Wooten. Senator, thank you for that question.
    The fact is that there are many nontraditional--if I can 
use that term--nontraditional contractors who are reticent to 
work with the Federal Government. They see us as too 
cumbersome. Some of the smaller companies see us as a bit 
cumbersome, and those are the very companies that we need to 
work with often in looking for the right solution for cyber 
response.
    If confirmed, I will look for opportunities to find the 
best practices in Federal Government where agencies are able to 
find innovation within the four corners of the Federal 
Acquisition Regulation (FAR), the existing innovation that they 
are already free to choose.
    I would also consider hearing recommendations for 
innovations that perhaps are outside of that, to include 
understanding the judicious use of the transaction authority.
    Senator Hawley. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Dr. Wooten, before I arrived here, I 
understand in your opening statement, you spoke of your 
family's military service. Would you just in a nutshell tell me 
what it was? I heard Navy, maybe Marine Corps.
    Mr. Wooten. Thank you, Senator Carper.
    I am proud to say this in a nutshell. My father was a 
sailor for 20 years, and he retired as a senior chief in the 
Navy. My father-in-law was a sailor and Naval aviator, and for 
30 years, he served and retired at the rank of Navy captain. I 
also served in the Marine Corps. We will admit that it is naval 
service. [Laughter.]
    I served for 20 years. Collectively, that is a legacy of 70 
years of naval service, and I am particularly honored that we 
have that legacy. So thank you for asking that question.
    Senator Carper. If you add together my service, retired 
Navy captain, not counting sometimes a midshipman, my dad's 
service as a chief petty officer, it would be I think about 60 
years.
    So we salute you and your dad, for you family for your 
service. Thank you.
    Mr. Wooten. And likewise, sir.
    Senator Carper. I loved doing it.
    I have a question, if I could, Dr. Wooten. I would like to 
highlight a concern about the current Administration's lack of 
cooperation with some oversight entities, with I think 
legitimate requests for information.
    Several months ago, Senator Udall and I asked the 
Environmental Protection Agency (EPA) Inspector General to 
review an EPA decision to repeal emission limits for glider 
trucks, which are really diesel trucks, old diesel trucks that 
have a new exterior. Diesel engines are big polluters. Trucks, 
cars, boats, trains. A diesel engine is a big polluter of 
particulate matter, also something called ``black carbon,'' 
which is a lot more dangerous that just regular carbon dioxide.
    But the EPA IG has been investigating the EPA's role and 
the OMB's role in issuing this regulation. Just last week, for 
example, the EPA IG sent a rare letter to Congress noting that 
the OMB is failing to respond to the EPA IG request for 
information about the OMB's role in issuing this rule.
    Similarly, earlier today, my staff met with the GAO on a 
number of audits and investigations involving the OMB, and 
during their conversation, the GAO notified my staff that the 
OMB was recently asked by the Comptroller General--that is Gene 
Dodaro, whom you may know--was asked by the Comptroller General 
for the OMB to be more responsive, to be more transparent and 
cooperative with the GAO.
    I find it concerning that the OMB is not being fully 
cooperative with oversight entities whose job it is to do 
oversight, to be a watchdog. If confirmed will you commit to 
respond to oversight requests, including requests made by 
Congress, by agency Inspectors General, and the General 
Accountability Office?
    Mr. Wooten. Senator, thank you for the question.
    Senator Carper. You are welcome.
    Mr. Wooten. If confirmed, I will be responsive. I believe 
in transparency.
    Senator Carper. Thanks so much.
    Let me just ask also, What would you do to ensure that the 
OMB as a whole is more responsive to underlying legitimate 
oversight requests?
    Mr. Wooten. Senator, if confirmed, my role, as I understand 
it, as Administrator for Federal Procurement Policy, would have 
me in that particular lane. I would, as a good partner, though, 
ensure that any information as required from my particular 
office was forwarded to the OMB at large so that we could 
provide timely responses.
    Senator Carper. Thank you.
    Ms. Cabaniss, has your last name ever been mispronounced?
    Ms. Cabaniss. Just a few times.
    Senator Carper. Maybe even today?
    Chairman Johnson. Not by me. [Laughter.]
    Senator Carper. And how do you gracefully when people say, 
``Ms. Cannabis''--how do you gracefully tell them that your 
name is Cabaniss?
    Ms. Cabaniss. I just let it go.
    Senator Carper. I thought you were very gracious, and I am 
sure it has happened many times. It happened as we were 
preparing for my meeting with you earlier this week.
    Alright. Ms. Cabaniss, I am concerned that this 
reorganization proposal, which we discussed yesterday--thanks 
for spending the time with us, but this proposal in the 
President's budget proposal, which slashed in some cases agency 
budgets across the board and other Administration actions like 
unnecessarily shutting down our government earlier this year, 
are having a serious effect on morale across the government, 
and not only morale, but the ability of the government to 
recruit and retain a world-class workforce.
    In this Committee, the Chairman and others on this 
Committee, myself, worked for years with the Secretaries of 
Homeland Security in order to try to bolster the morale of that 
agency, and finally, after years and years of trying, we saw a 
great deal of improvement in that morale. And we see it now 
just being dissipated, which is tragic for those of us who care 
about this.
    But, if confirmed, what will you do, what would you go to 
improve morale at OPM and across the Federal Government?
    Ms. Cabaniss. Well, I would work with the Chief Human 
Capital Officers (CHCO). I would like to find out what they 
think best makes employees know that they are valued.
    I have been through shutdowns several times, unfortunately, 
nothing to the extent of this one. I have seen the impact that 
it had on my fellow workers. So I think I very much empathize 
and understand that it is difficult for employees because they 
are caught up in something that really has nothing to do with 
them.
    I would definitely want to work, at least at OPM, with the 
career managers and the OPM unions just to figure out what they 
think is the most effective way of communicating that message 
to employees that they are valued and that we support them and 
they are critical to our achievement of our mission.
    Senator Carper. When I served as Governor of Delaware, we 
had a huge focus for those 8 years on raising student 
achievement, and one of the things I would do is--we have 19 
school districts in our State. Each district chooses their own 
Teacher of the Year, and one of those 19 is chosen as the 
Delaware Teacher of the Year. I used to invite them all in for 
lunch in June when school was over and just to talk for 2 hours 
about what was working in their classrooms to raise student 
achievement.
    You may want to take a similar approach and look at some 
agencies. A good place to start is Homeland Security. For 
years, almost dead last. For years, almost dead last. And there 
are other agencies that for years are like right at the top and 
from different Administrations. I would like to see you find 
out what works, do more of that, find out what does not work 
and do less of that.
    You may want to stop and take a look at particularly 
Homeland Security, which was a laggard forever, and then it 
finally rose from the ashes and at least until recently was a 
role model there.
    One last quick question, if I could. How do you plan to 
work with frontline Federal employees in implementing the 
reorganization proposal before us?
    Ms. Cabaniss. As I have mentioned earlier, as I understand 
the President's proposal, it is going to require legislation 
for some of the changes to be effectuated. I would want to work 
with stakeholders to make sure that people have an 
understanding of how any changes would need to be implemented, 
working with Congress, but with employees, I think the more we 
can do just to communicate that information and be transparent, 
I think would be helpful.
    As I mentioned earlier, I think change is a part of life. 
In government, it is the same, and the private sector, but we 
need to make sure that employees, to the extent that we can, 
that we have a transparent process, that they know what is 
going on, and while we cannot necessarily guarantee an outcome, 
we can provide people with enough information to help them 
manage the concerns that they might have about any change.
    Senator Carper. My time has expired.
    I am going to submit a question for the record, Dr. Wooten, 
to you about improper payments, overpayments, underpayments, 
mistaken payments, which added up last year to about $140 
billion. This is a huge amount of money for our government. We 
have been working on this again for years, and we are not going 
to give up. I would just ask you to take a look at that 
question for the record and give me a good response. $140 
billion, one year alone, that is a lot of money.
    Thank you.
    Mr. Wooten. Thank you, Senator.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you.
    Thanks to you all for going through this process. It is not 
a fun process, but we really need good folks to be in these 
roles. So I appreciate you all going through the process and 
reaching this point.
    Dr. Wooten, let just, I guess, tell you a story real quick. 
I met with one of our generals at one point in the military to 
be able to ask about procurement around their base, and I said, 
``What do we need to tweak on the Defense Federal Acquisition 
Regulation (DFAR)?'' He did not hesitate. He said, ``You do not 
need to tweak. You need to throw the whole thing away.'' All of 
our acquisition process, it is so bulky and so expensive and so 
difficult. We have to start all over to be able to figure out 
how to do this.
    We desperately need people that know the system to make 
recommendations to us on how acquisitions are done in the 
contracting because we are getting too few small businesses. We 
are getting too few hungry businesses that want to engage and 
to get into Federal contracting. We are having more and more 
folks say, ``It is too hard, too difficult. I am not going to 
even try,'' so we get larger and larger and larger companies, 
which love the regulations because they are the only ones built 
to do it, and so there is less and less competition in the 
process.
    How can we lean on you and get information from you on how 
to fix the problem? Because some of the things, you can help 
manage, but we do not need to manage some of these. We need to 
blow up and rebuild some of these areas. How can we do that?
    Mr. Wooten. Senator Lankford, you have asked a very 
thoughtful question, and thank you for that. That way, I can 
address it for the record.
    The procurement process--or let me say the Federal 
Acquisition Regulation--has evolved over decades as a result of 
statutes, as a result of regulations, and as a result of case 
law, and it is now a Gordian Knot. And what I believe that you 
were suggesting is that we find someone who can come in and cut 
the Gordian Knot.
    Senator Lankford. Right.
    Mr. Wooten. I do not know where to cut the knot.
    What I do know is that what has worked for us in drawing 
out incremental improvements is to rely on the rulemaking 
process to make sure that all stakeholders can get involved and 
slowly make tweaks.
    As we start talking about the need to gain some more rapid 
momentum--and you have made that case, and so have some of your 
colleagues, particularly in the area of IT and cyber defense, 
some of the quick win opportunities, I believe, would be found 
in, again, being able to identify and then publicize successes 
in innovation that are happening within the four corners of the 
FAR.
    Too often, the answers that people have gotten--and I have 
been that customer wearing the uniform. Too often, the answers 
that we have gotten is the ``no,'' ``No, I cannot,'' because 
``no'' is safe.
    Senator Lankford. Right.
    Ms. Cabaniss. ``No'' needs to no longer be safe.
    Senator Lankford. So another quick story. I saw a new piece 
of hardware. I will just leave it at that. I went to go visit 
to see what happened. It has been in process for years. I go 
see the new hardware. The first thing they do is fire up the 
computer, and then we stand around and talk--I do not know--6 
minutes while it is booting up.
    I looked at it and said, ``Is it booting up, or is it 
having a problem?'' And they said, ``Oh, no. This is the first 
thing we are going to have to replace is the computer system 
because it was all built on the technology from 10 years ago. 
So, as soon as we get it, we have to replace it immediately.'' 
What in the world? That it is built in our system that there is 
a problem.
    I always know anytime that anyone is told no that had the 
contract last year, if they lose it, we are guaranteed they are 
going to dispute it so they can still have the contract for at 
least another year and they are guaranteed those dollars and 
that flow while we are actually fighting it out.
    There are issues in our system that were built to be able 
to protect all voices to make sure everyone gets heard, which 
is good, but what it is really doing is preventing small 
companies from getting in and allowing more voices to be heard. 
We are actually getting fewer, and you have to know the system 
and have the legal background to be able to actually get 
engaged. And most folks will say, ``It is not worth the 
trouble. I am going to spend months and thousands or millions 
of dollars trying to compete to go get this big contract, and 
at the end of it, somebody is going to beat me that knows the 
system better, so why bother?''
    I want to help with this. There are many of us in this 
Committee that want to help with this. We need practical ideas 
as we go through it, and so we are looking for more interaction 
as we go through the process, not less.
    The last thing we want to have is this is the last time we 
see each other or for you to assume there is a lot to get done 
and so I will work on my stuff and wish this was different, 
whether it is dealing with off-the-shelf technology that often 
works, but every agency wants to do their own personalized 
stuff rather than off-the-shelf, or whether we try and fix the 
acquisition process. I want us to get away from the assumption 
that as soon as we buy equipment that has a computer attached 
to it, the first thing we always have to do is replace the 
computer. We should definitely get away from that rather than 
just buying something twice. So we look forward to partnering 
together on that.
    Let me switch over. Thank you for coming by to be able to 
visit and us be able to walk through some things. Can I ask 
you, How do we deal with USAJOBS and to make it as efficient as 
we possibly can?
    To go through the process, just to go through history that 
you were not there for, but USAJOBS was originally run by 
Monster. It was run for about $6 million a year. We took it in-
house, the Federal Government did in 2011 or 2010, somewhere 
through there, paid $6 million to create the new platform, then 
$12 million to run it every year.
    And we get constant complaints from people that cannot find 
any of their listings on USAJOBS, or if you do not know the 
secret keywords to be able to get to it, you cannot actually 
navigate it. How do we fix this?
    Ms. Cabaniss. No, I agree with you, Senator. I really 
think, much like retirement processing, we need a bottom-up 
review of that, because I have seen that very experience with 
colleagues of mine who have tried to look for Federal jobs and 
could not find congressional liaison jobs in Washington, DC.
    Senator Lankford. Right.
    Ms. Cabaniss. Things that were very easy to look for.
    Also, besides USAJOBS and the problems with I think that 
relate somewhat to the technology is the problem is what 
happens on the other side once someone goes through USAJOBS, 
and a lot of the frustrations come from lack of information 
from agencies on the other side, not even an acknowledgment 
that an application has gone through or not any information 
about whether a position has already been filled.
    So I think, again, it is something that we have really got 
to take a look at because when my kids can apply for a job on 
their phone and get an answer within--one of them did in a 
matter of hours, a response. I do not know how we compete 
against that.
    Senator Lankford. Yes, we are currently not. We are having 
a difficult time in the USAJOBS.
    It is taking over 100 days to actually do retiring, and if 
you get all the way to retirement. Great. Thanks for your 
service on this. Wait 6 or 8 months before your retirement 
actually begins because we are trying to figure out how to do 
the processing. Not that you have a few problems to be able to 
solve, but we are counting on you to be able to take the job.
    Ms. Cabaniss. No, but I think that is a huge issue because, 
as you and I discussed, I am most concerned about bringing in 
that next generation of Federal employees, and we just cannot 
have obstacles that discourage them from trying to get a job in 
the Federal Government.
    Senator Lankford. Yes. We continue to want great folks.
    So thank you to both of you for stepping up to be able to 
take this on. It is a critical moment.
    Chairman Johnson. Thank you, Senator Lankford.
    Before I ask my questions and close out the hearing, 
Senator Peters has a question.
    Senator Peters. Thank you, Mr. Chairman.
    Ms. Cabaniss, just one final question. As you know, the 
reorganization plan that we have been talking about through 
this hearing is complex, and it can raise some novel questions 
of authority as well.
    So, if confirmed, what will you do if you are directed by 
either the White House or the OMB to take a specific action 
that you believe is outside of the OPM's legal authority? How 
will you handle that?
    Ms. Cabaniss. Senator, I would strongly try and explain 
that throughout my career, whether it was in the Senate or in 
the Executive Branch, everyone I think has an expectation that 
I do not tell people what they want to hear. I tell people what 
they need to hear. So I think I would always be an advocate to 
try and make sure that people had the information they needed.
    Senator Peters. That they would have the information they 
needed to realize that it is outside the authority?
    Ms. Cabaniss. Absolutely.
    Senator Peters. And would you be willing and will you 
commit to making sure this Committee, both the Majority and 
Minority, are aware of that instance in the name of full 
transparency as to what is going on?
    Ms. Cabaniss. Yes. I think that would be part of the 
organic process of discussing legislation. I mean, I think if 
there is going to be legislation that is going to come up here 
that is going to be needed to effectuate some of these changes, 
it is going to be clear on its face where there are gaps, where 
you need legislation, where you need different legal authority.
    There may be disagreements about that. I am sure we will 
engage, if confirmed, in robust discussions within the partners 
of the Administration but as well as the Hill about what 
authority is needed.
    Senator Peters. Obviously, on the legislation you are 
bringing forward, we would have that conversation, but the 
question is, if you are being asked to do something that you 
think is outside that scope, certainly we need to know that 
here on the Committee. You would be willing to come to us and 
say, ``I think this is something that you need to look at?''
    Ms. Cabaniss. Senator, I think it would be clear on its 
face, but yes, I would have that discussion.
    Senator Peters. OK. Thank you.
    Chairman Johnson. Thank you, Senator Peters.
    Dr. Wooten, I could not help--I think I saw kind of a smile 
when Ms. Cabaniss was talking a little bit about the records in 
a cave on retirement.
    First of all, I think we should stipulate for the record, 
they are actually in a four-drawer file in that cave. So it is 
not a total lost cause.
    But it gets to be really kind of the question that Senator 
Lankford was talking about. How do you acquire? When do you 
design a system internally versus buying something off the 
shelf?
    Now, the Federal Government is not the first entity that 
has transferred paper records into a computerized system. It 
boggles my mind that we are still here in 2019, and it has not 
happened.
    Can you just kind of speak from the standpoint of 
acquisition and procurement or policy-wise, how do we grapple 
with that issue? How do we enforce a process where you really 
do try and use what is available in the private sector and try 
and minimize the customization to it as much as possible? 
Because let us face it, the customization has proved not to 
work too well, particularly for the Federal Government.
    Mr. Wooten. Well, Mr. Chairman, thank you for that 
question.
    I am pleased to be able to go on the record to address some 
things that I think can outline perhaps opportunities for the 
Federal Government and for Federal Procurement Policy.
    First, in America, we are doing it right, but oftentimes, 
that is on the private-sector side. That is where we can learn 
some lessons. We can learn from what they are doing, find out 
what the private sector is doing to be able to procure the IT 
solutions it needs and then see if we cannot do that within the 
existing four corners of the FAR. I think that is the first and 
prudent, necessary step.
    Next, as you mentioned and I think I have heard several of 
your colleagues discuss, oftentimes in the Federal Government, 
we procure commercial off-the-shelf (COTS) products, but then 
we proceed to break the COTS solution and try to retrofit it 
into the peculiar set of government policies or practices. That 
needs to end.
    We need to look at the COTS solutions and, before we 
procure them, ask ourselves if we can retrofit the process 
instead of the product, and if we can retrofit the process and 
align government business processes to work with the existing 
COTS solution, then we truly have a commercial off-the-shelf 
solution.
    Lastly, sometimes we do have large acquisition systems; in 
particular, on the DOD side, military weapon systems. As we 
used to say at DAU, every major weapon system is an IT 
procurement system, and when you have that realization, of 
course, that means you are going to be doing some development. 
We need to figure out better ways of doing the development for 
customized solutions so that we do not realize 2 and 3 years 
down the pipeline that we have built our way to something that 
is already antiquated.
    Chairman Johnson. That made way too much sense. [Laughter.]
    Thank you for that answer.
    Mr. Wooten. Thank you, sir.
    Chairman Johnson. Ms. Cabaniss, I should have asked you 
this in my office, and I did not. So this is coming a little 
bit from left field, but it is an issue kind of dear to my 
heart because I ran a manufacturing plant 24/7, 365 days a 
year. The only way you can do that industry, the way it is done 
in industry--I am not really aware of any exceptions--is with 
four shifts.
    Now I come to the Federal Government, and particularly in 
areas of law enforcement, like Customs and Border Protection, 
many of these law enforcement agencies have to operate 
continuously, and yet we do it in three shifts. And it makes no 
sense to me.
    I just kind of want to get your thoughts on that. I have 
written oversight letters trying to get some sense to where 
there may be some operations operating with four shifts, but 
can you just kind of speak to that?
    Ms. Cabaniss. Senator, I am not familiar with that, how 
many shifts there are, but it certainly--as I mentioned to you 
earlier, I am willing to explore anything that we can to make 
government operate more efficiently, and I am happy to work 
with you and your staff to try and learn more about it.
    Chairman Johnson. So consider this fair warning. It is 
going to be an issue I am going to continue to ask questions 
about because, again, what we are doing, in three shifts, over 
168-hour work week, that is 56 hours, which burns people out.
    Again, I was just down at the border in El Paso. The Border 
Patrol likes the pay, but the hours burn them out.
    Ms. Cabaniss. Right.
    Chairman Johnson. Certainly, one of the many reasons why 
morale would probably not be as high as we would like to see it 
at all.
    Ms. Cabaniss. Right.
    Chairman Johnson. The other issue we are seeing too is just 
our inability to hire as quickly, as we are witnessing 
attrition in other areas. Can you just kind of speak to that 
issue?
    Ms. Cabaniss. No, I agree with you. I think that is an 
issue, and I think we need to make sure that agencies are aware 
of the flexibilities that they have, whether it is direct hire 
authority or temporary, but we also need to look at some of the 
proposals the Administration has put forward to try and figure 
out a way to bring people more on board more quickly, 
particularly in areas where we need people to come in for a 
discrete project, do that project and leave. We do not 
necessarily need them to stay in one particular area for an 
entire career.
    So we just need to look at all flexibilities. I mean, we 
have a system that is not really made for today's world, much 
less today's government, and I think we need to consider all 
available options.
    Chairman Johnson. OK. Again, I just want to thank both of 
our nominees for your willingness to serve, your past service. 
Again, I encourage you to work with this Committee. We are 
really here to help you perform your task as best you possibly 
can, and as well, our very legitimate oversight functions. I 
agree with Senator Peters. Please communicate with the 
Committee. If you are having issues or problems and stuff, 
those are things we do need to know, and it is a lot better 
being up front than hearing about it sometime later on in a 
hearing when it has not gone too well.
    I will read the final magic words here for the hearing. The 
nominees have filed responses to biographical and financial 
questionnaires, answered prehearing questions submitted by the 
Committee, and had their financial statements reviewed by the 
Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record,\1\ and with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee offices.\2\
---------------------------------------------------------------------------
    \1\ The information for Ms. Cabaniss appears in the Appendix on 
page 36.
    \2\ The information for Mr. Wooten appears in the Appendix on page 
100.
---------------------------------------------------------------------------
    Again, I want to really thank you, and the hearing record 
will remain open until 5 p.m., tomorrow, May 8, for the 
submission of statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 3:47 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
